CERTIFICATE OF SERVICE
No.TBD
Avtar S. Badwai
Petitioner(s)
v.
Ramandeep Badwai
Responderit(s)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
I. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA.02215.
2. On the undersigned date, I served the parties in the above captioned, matter with the Avtar
S.BADwal Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Ramandeep Badwai
82-17 263rd Street
1 Glen Oaks, NY 13004
Pro Se Respondent

David Lawrence Ill
NY Assistant Solicitor General
NY State Office Attorney General
28 Liberty Street
New York, NY 10005
(212)416-8023
Counsel for Jeffrey S. Brown

/Y
■V

M

M

4 i
%

' Dan Abramovich
December 4, 2019
SCP Tracking: Badwal-9737 120th Street-Cover White

.. t

